                                   Report Template Version = 09-08-04




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   ASSESSMENT OF SPONSORS’ 

    MATERIALS UNDER THE 

    TEMPORARY MEDICARE
   APPROVED DRUG DISCOUNT 

        CARD PROGRAM





                    Daniel R. Levinson

                    Inspector General 


                      October 2005

                     OEI-05-04-00190

                                                                     Report Template Version = 09-08-04




                   Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud
and patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties
on health care providers and litigates those actions within HHS. OCIG also represents OIG in
the global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                                                                                 Report Template Version = 09-08-04




Δ   S Y N O P S I S                         





                  Part D of the Medicare Prescription Drug, Improvement, and
                  Modernization Act (MMA) of 2003 added outpatient prescription drug
                  benefits to the Medicare program beginning in 2006. In the interim, the
                  MMA also created the Medicare-Approved Drug Discount Card program
                  (drug card program). The Centers for Medicare & Medicaid Services
                  (CMS) administers the drug card program through private companies
                  (sponsors) it has approved to offer the drug cards. CMS requires these
                  sponsors to develop pre-enrollment packets, which must contain the
                  information beneficiaries need to make informed choices. Sponsors may
                  use pre-enrollment packets in their active outreach and/or may develop
                  advertising materials to attract beneficiaries to their cards. CMS
                  reviews and approves sponsors’ materials. Although we assessed
                  sponsors’ materials under the drug card program, this report is
                  intended to provide information to assist CMS in preparing for the
                  Part D drug benefit.

                  There are three sections to this report. First, we provide background
                  information on the drug card program and the Part D drug benefit, as
                  well as a brief description of our methodology. Second, we provide the
                  results of our assessment of sponsors’ materials under the drug card
                  program: the materials sponsors used in their outreach to potential
                  enrollees, the compliance of selected sponsors’ materials with CMS’s
                  requirements, and beneficiary understanding of key aspects of the drug
                  card program based on reading sponsors’ materials. Finally, based on
                  our assessment of the drug card program, we offer implications for CMS
                  to consider for the new Part D drug benefit. In return, CMS provided
                  extensive comments demonstrating how its ongoing and planned efforts
                  related to the oversight of sponsors’ marketing materials for the drug
                  benefit have incorporated our suggestions.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM     i
                                                                                                          Report Template Version = 09-08-04




Δ   T A B L E                     O F               C O N T E N T S                                          




                  SYNOPSIS.......................................................                                                              i



                  INTRODUCTION ................................................ 1




                  DRUG CARD MATERIALS ..................................... 9

                              Materials used in outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                              Compliance of materials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                              Beneficiary understanding of materials. . . . . . . . . . . . . . . . . . . . . 20 



                  IMPLICATIONS:                             N E W D R U G B E N E F I T . . . . . . . . . . . . . . . . . . . . 25 



                  A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 



                  O F F I C E O F I N S P E C T O R G E N E R A L R E S P O N S E . . . . . . . . . . . 30



                  E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 




                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 

                              A: 	Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 


                              B:	 Noncompliance for All Requirements Assessed and

                                  Sources of Error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41 


                              C: 	Beneficiary Understanding . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44 


                              D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47 



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55





OEI-05-04-00190          ASSESSMENT     OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    ii
                                                                                                 Report Template Version = 09-08-04




Δ   I N T R O D U C T I O N                                              



                  OBJECTIVE
                  To assess drug card sponsors’ materials under the Medicare-Approved
                  Drug Discount Card Program in an effort to assist CMS in preparing for
                  the new Medicare drug benefit under Part D. In particular, to assess
                  whether sponsors’ materials promote informed choice for beneficiaries
                  and to review CMS oversight of sponsors’ materials.


                  BACKGROUND
                  Medicare Coverage of Prescription Drugs
                  In 2004, Medicare provided health insurance for approximately
                  41.8 million Americans; this includes more than 35 million seniors and
                  6.5 million nonelderly people with disabilities.1 Medicare Part B covers
                  a limited range of drugs, primarily those administered in a physician’s
                  office. In 2003, Medicare spent approximately $4 billion on prescription
                  drugs covered under Part B.2
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA), Public Law 108-173, added an outpatient prescription
                  drug benefits to Medicare under Part D. Effective January 2006, all
                  Medicare beneficiaries will be able to enroll in private plans, which will
                  cover a percentage of their drug costs. Assistance with premiums and
                  cost sharing will also be provided to an estimated 11 million low-income
                  beneficiaries.3 Estimates of the Part D drug benefit cost range from $47
                  billion to $58.9 billion for FY 2006.4
                  Medicare-Approved Drug Discount Card Program
                  While the full Medicare prescription drug benefit will not be
                  implemented until January 2006, the MMA also created the Medicare-
                  Approved Drug Discount Card program (drug card program) to provide
                  immediate access to discounted prescription drugs. All Medicare
                  beneficiaries who are enrolled in Medicare Part A and/or Part B and do
                  not have outpatient prescription drug coverage under Medicaid are
                  eligible. Beneficiaries can enroll in the drug card program at any time
                  from May 3, 2004, through December 31, 2005. Discounts became
                  available in June 2004 and end in January 2006 with the advent of the
                  full prescription drug benefit. The Centers for Medicare & Medicaid
                  Services (CMS) reported in December 2004 that 5.8 million beneficiaries
                  had enrolled in the drug card program.5
                  In early 2004, CMS approved private companies (sponsors), including
                  manufacturers, health insurance companies, drug store groups, and

OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    1
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    managed care firms, to provide a total of 73 Medicare-approved drug
                    discount cards. Sponsors offer 40 national drug cards and 33 regional
                    drug cards.6 Throughout this report, we use the term “drug card
                    sponsor” when referring to the entity contracted to offer an individual
                    drug card. In some cases, one company actually has several contracts
                    and offers multiple drug cards.

                    Medicare beneficiaries are allowed to enroll in only one drug card per
                    year. Once beneficiaries are enrolled, they are not allowed to switch to
                    a different drug card until the next open enrollment period.7
                    Beneficiaries are expected to consider several program features when
                    deciding which drug card is best for them. Discounts vary between
                    cards and may vary within each card by drug, by pharmacy, and by
                    geographic location; and the discounts may also change over time. Drug
                    card sponsors can offer discounts on all drugs allowed by CMS or may
                    cover only a select list of drugs, and the particular drugs covered by a
                    card may vary throughout the life of the drug card program. Discounts
                    are available only at network pharmacies that have agreed to accept the
                    card. Network pharmacies also vary by drug card. Drug card sponsors
                    may charge an annual enrollment fee of up to $30 or may offer a card
                    without an enrollment fee.8
                    In addition to the discounts available through the drug cards, the
                    Medicare-Approved Drug Discount Card program provides $600 in
                    Transitional Assistance credit for beneficiaries with incomes at or below
                    135 percent of the Federal poverty level and without other drug
                    coverage.9 Eligible beneficiaries may use the annual $600 credit toward
                    prescription drug purchases in both 2004 and 2005. Medicare also will
                    pay any drug card enrollment fees for these beneficiaries. According to
                    CMS, 1.5 million drug card enrollees had begun receiving the $600
                    Transitional Assistance credit by December 2004.10
                    Sponsors and CMS Must Promote Informed Choice
                    The MMA directs CMS and sponsors to make certain information
                    available to eligible beneficiaries for the purpose of promoting informed
                    choice among drug cards.11 CMS has conducted an outreach and
                    education campaign and offers beneficiaries several other informational
                    resources. CMS offers a toll-free hotline (1-800-MEDICARE) to help
                    beneficiaries assess their eligibility, find out which drug cards are
                    available in their area, and compare features of available drug cards
                    including discounts on the drugs they take. CMS also offers this



 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    2
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    information on its Web site (www.medicare.gov), along with a price
                    comparison feature.

                    The MMA requires that each sponsor “shall make available to discount
                    card eligible individuals . . . information that the Secretary identifies as
                    being necessary to promote informed choice among endorsed discount
                    card programs . . .”12 CMS has delineated this information in its
                    Information and Outreach Materials Guidelines for sponsors’ materials.
                    CMS’s regulations incorporate these Information and Outreach
                    Materials Guidelines by reference.13 Examples of required information
                    include how to become enrolled in a drug card, eligibility qualifications
                    for the $600 credit, toll-free telephone numbers, enrollment fees, types
                    of contracted pharmacies, types of prescription drugs offered for a
                    negotiated price, how enrollees can obtain more complete information
                    regarding drugs discounted and the pharmacy network, and a notice
                    that drugs and prices may change. Drug card sponsors’ materials must
                    explain enrollment rules, some of which imply that multiple drug cards
                    are available (for example, materials must state that enrollees cannot
                    enroll in a new drug card until January 1, 2005). However, materials
                    are not required to explicitly state that beneficiaries have a choice of
                    drug cards.14
                    Sponsors’ Materials: Pre-Enrollment Packets and Advertising Materials
                    CMS classifies sponsors’ drug card materials as either explanatory
                    materials or advertising materials.
                    Pre-Enrollment Packets and Other Explanatory Materials. Explanatory
                    materials include information required by CMS to inform beneficiaries
                    about the program. CMS requires sponsors to make explanatory
                    materials available to beneficiaries upon request prior to enrollment
                    (through pre-enrollment packets), at enrollment (e.g., notification of
                    enrollment status), and after enrollment (e.g., member handbooks,
                    membership cards).15
                    Sponsors’ pre-enrollment packets must include information CMS has
                    deemed necessary for promoting informed choice prior to enrolling in a
                    sponsors’ drug card. These packets contain a cover letter, a program
                    description (called a Summary of Program Features), enrollment
                    instructions, and enrollment forms. According to CMS regulations,
                    sponsors are required to provide pre-enrollment, explanatory
                    information “through the Internet and some other tangible medium
                    (such as a mailing)” to explain the sponsors’ drug card to eligible
                    beneficiaries.16

 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    3
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    Advertising Materials. Advertising materials provide general information
                    about a drug card and are intended to generate interest and encourage
                    beneficiaries to get the additional information they need to enroll.
                    Although advertisements are not necessarily intended to provide in-
                    depth information about sponsors’ drug cards, these materials may
                    affect beneficiary choice by including some key information about
                    program features. Advertising materials are required to include certain
                    disclaimers when topics such as discounts and enrollment fees arise.

                    Advertising materials cannot include enrollment forms and are not
                    meant to be used to enroll. However, beneficiaries who see sponsors’
                    advertisements may enroll over the phone (through a sponsor’s call-in
                    center) and may not have the benefit of reviewing a pre-enrollment
                    packet prior to enrolling.
                    CMS Oversight of Sponsors’ Materials
                    The MMA requires the Secretary to provide “appropriate oversight to
                    ensure compliance of endorsed discount card programs and their
                    sponsors with the requirements of this section.”17 CMS uses several
                    mechanisms to ensure that sponsors’ materials are in compliance.

                    In January 2004, CMS issued specific requirements and guidance for
                    sponsors’ explanatory and advertising materials in its Information and
                    Outreach Materials Guidelines. These requirements outline the key
                    program information that materials must include, as well as specific
                    disclaimers, specific terminology, and requirements for presenting
                    information clearly such as font size specifications. These guidelines
                    were revised and updated in August 2004. CMS has also provided
                    sponsors with a list of suggested terminology and model materials for
                    member handbooks, enrollment instructions, and enrollment forms that
                    sponsors can choose to adopt.18
                    To ensure that materials promote informed choice, drug card sponsors
                    must obtain CMS’s approval of all materials before distributing them to
                    beneficiaries.19 CMS has hired a contractor (hereinafter referred to as
                    CMS’s contractor) to review and approve sponsors’ materials. Materials
                    are reviewed within 30 days and approved, disapproved, or approved
                    with stipulations. In the last category, sponsors are expected to make
                    small changes to their materials before distributing them and to submit
                    a copy of the final material to CMS’s contractor. CMS’s contractor
                    conducts a retrospective review of a portion of these materials to
                    determine whether the stipulated changes are made. Materials that
                    follow CMS models receive a streamlined 10-day review.

 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    4
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    Finally, CMS may opt to randomly retrieve and review sponsor
                    materials from the marketplace to ensure that sponsors have not
                    modified these materials without CMS’s approval.
                    Implications for the Full Medicare Prescription Drug Benefit Under Part D
                    Our assessment of sponsors’ materials and CMS oversight under the
                    drug card program has particular relevance for CMS’s implementation
                    of the Part D drug benefit. While the drug card program will end with
                    the start of the Part D drug benefit in 2006, prescription drug plan
                    sponsors’ materials will play a similar role in informing beneficiaries’
                    choice under the Part D program. Specifically, beneficiaries will rely on
                    information from CMS and prescription drug plan sponsors when
                    enrolling in the Part D program. Prescription drug plan sponsors will
                    be required to produce materials similar to those under the drug card
                    program and submit their materials to a similar review process under
                    Part D. In some cases, drug card sponsors are likely to apply to become
                    prescription drug plan sponsors.

                    CMS and prescription drug plan sponsors’ outreach to beneficiaries
                    needs to be sufficiently thorough and clear to allow beneficiaries to
                    make an informed decision about enrollment. Beneficiaries’
                    understanding of the Part D drug benefit will be even more crucial than
                    their understanding of the drug card program because the choices about
                    enrolling in the Part D drug benefit will be considerably more complex.
                    For example, Part D benefits will vary with beneficiary drug
                    expenditures and with beneficiary income. Further, beneficiaries with
                    private prescription drug coverage will need to compare that coverage to
                    the prescription drug plans available under Part D to determine which
                    program best meets their needs. And, though Part D is voluntary,
                    beneficiaries who delay enrollment will face financial consequences,
                    including increased premiums.
                    Concurrent OIG Inspections
                    OIG has conducted two additional studies related to the drug card
                    program. One, Medicare-Approved Drug Discount Card: Beneficiaries’
                    Awareness and Use of Information Resources (OEI-05-04-00200),
                    assesses the extent of beneficiaries’ awareness and use of information
                    resources to decide whether to enroll in the drug card program and
                    navigate the enrollment process. The second study, Analysis of Drug
                    Card Sponsors’ Drug Prices (OEI-05-05-00020), monitors the
                    prescription drug prices posted by sponsors on the Medicare Web site
                    and determines the extent to which sponsors are changing these prices.


 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    5
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N 




                    METHODOLOGY
                    This inspection focuses on sponsors’ materials that are likely to inform
                    beneficiary decisions about enrolling in the drug card program:
                    pre-enrollment packets and advertising materials. To assess the extent
                    to which sponsors’ materials promote informed choice, we reviewed a
                    selection of materials and conducted interviews with sponsors that
                    administer 62 drug cards. Although there are 73 cards in the program,
                    we excluded 11 drug cards from our study. Some of these 11 drug cards
                    were not available to beneficiaries at the time of our interviews or
                    served only long-term care beneficiaries. See Appendix A for additional
                    information about our methodology.
                    Assessing Whether Sponsors’ Materials Promote Informed Choice
                    To assess the extent to which pre-enrollment packets and advertising
                    materials promote informed choice, we assessed selected sponsors’
                    materials in two ways: we conducted a structured review of sponsors’
                    materials and conducted cognitive interviews with beneficiaries who
                    read selected materials and answered questions based on their reading.
                    Selected sponsors’ materials. We selected 62 pre-enrollment packets and
                    20 advertising materials for our review. We selected 1 pre-enrollment
                    packet for each of the 62 drug cards included in our study. Based on our
                    interviews with sponsors, we determined that the 62 drug card sponsors
                    used a total of 80 pre-enrollment packets. We found that 45 sponsors
                    use only 1 pre-enrollment packet. For the 17 sponsors that use 2 or
                    3 pre-enrollment packets, we selected the packet that sponsors
                    indicated was used to target the most beneficiaries.

                    For our review, we selected one tangible advertising material from each
                    of 20 drug card sponsors that use tangible advertising materials.
                    Tangible advertising materials include such things as direct mail, print
                    ads, and flyers; they do not include radio or TV ads, posters,
                    presentations, etc. For sponsors that sent tangible advertising
                    materials via direct mail, we selected the direct mail material that
                    targeted the most beneficiaries. Similarly, for sponsors that did not use
                    direct mail to send advertising materials, we selected the tangible
                    advertisement that targeted the most beneficiaries.
                    Structured review of sponsors’ materials. We conducted a structured review
                    of selected sponsors’ materials to identify whether CMS-approved
                    materials include required information. We discussed the
                    noncompliance we found in our structured review with CMS and CMS’s
                    contractor. Our report includes the results of these discussions.

 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    6
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    We selected 25 requirements applicable to pre-enrollment packets and
                    7 requirements applicable to advertisements.20 Because some
                    requirements are only applicable to certain drug cards or materials,
                    between 20 and 24 requirements are applicable to each selected
                    pre-enrollment packet and 2 to 7 requirements are applicable to each
                    selected advertisement. All selected materials were approved between
                    March and July 2004. Although CMS revised its requirements for
                    sponsors’ materials in August 2004, we assessed materials’ compliance
                    with requirements applicable at the time the material was approved.
                    As a result, some portion of materials that met all the requirements we
                    assessed may not meet all current CMS requirements.21 See Appendix
                    B for a complete list of the requirements we selected for our review.
                    Cognitive interviews with beneficiaries. To assess whether sponsors’
                    materials are clear and understandable to Medicare beneficiaries, we
                    interviewed 151 Medicare beneficiaries in 5 cities: Chicago, IL, Tucson,
                    AZ, Seattle, WA, Providence, RI, and Jackson, MS. We selected these
                    cities because they vary by population size and geographical region,
                    because more than 10 percent of each city’s population is over age 65,
                    and because beneficiaries in these cities’ State Pharmacy Assistance
                    Programs were not automatically enrolled in the drug card program.22
                    We excluded cities that CMS visited to conduct similar beneficiary
                    interviews to test Medicare outreach materials. We conducted
                    interviews at four or five community-based senior centers in each city.

                    Prior to the interviews, we screened respondents to ensure that they
                    were eligible for the drug card program and that they made their own
                    health care decisions. Further, we only included beneficiaries who
                    reported that they were comfortable reading and discussing materials.

                    Each respondent was assigned a short 5- to 15-minute reading selection
                    consisting of either an advertising material or a selection from a
                    pre-enrollment packet. Thirty-eight respondents read an advertisement
                    and 113 respondents read a selection from a pre-enrollment packet.
                    Respondents then answered questions about the drug card program
                    based on the material. Although we allowed respondents to take their
                    time and refer back to materials throughout the interview, beneficiaries
                    in a real-world setting may have assistance from others in
                    understanding sponsors’ materials, which our respondents did not have
                    during our interview. Overall, individual interviews lasted
                    approximately 20 to 30 minutes. (As previously mentioned, OIG is
                    assessing how beneficiaries made enrollment decisions in real-world


 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    7
                                                                                                   Report Template Version = 09-08-04




I N T R O D        U C T     I O N


                    settings in our concurrent inspection on beneficiary use of information
                    resources.)

                    In cases in which multiple drug card sponsors used the same
                    pre-enrollment packet or advertisement, we included only one copy of
                    the material for beneficiary interviews. Because several sponsors
                    developed identical or “template” materials that were used for multiple
                    drug cards, our original selection of 62 pre-enrollment packets and
                    20 advertisements was reduced to 35 unique pre-enrollment packets
                    and 12 unique advertisements as reviewed by beneficiaries. Since each
                    beneficiary read 1 material and there were 47 selected materials
                    (35 unique pre-enrollment packets and 12 unique advertisements), each
                    material was read by 3 or 4 beneficiaries, for a total of 151 interviews.
                    Interviews With Sponsors
                    We conducted structured telephone interviews with 33 sponsor
                    companies that offer a total of 62 general drug cards. We used these
                    interviews to identify sponsors’ materials for our review and to
                    determine how sponsors use pre-enrollment packets and advertising
                    materials in their outreach to beneficiaries. (As indicated previously,
                    we use the term “drug card sponsor” when referring to the entity
                    contracted to offer an individual drug card; thus, there are 62 drug card
                    sponsors included in this study. In some cases, one company actually
                    has several contracts and offers multiple drug cards. Because of this,
                    we use the term “sponsor companies” when referring to the 33 parent
                    companies that administer the 62 drug cards included in this study.)
                    Limitations
                    The data in this report are restricted to the 62 pre-enrollment packets
                    and 20 advertisements we assessed and to the sponsors and
                    beneficiaries we interviewed. Although we do not project our results to
                    all sponsors’ materials, our data represent the primary outreach
                    materials used to target the largest number of beneficiaries for the vast
                    majority of drug card sponsors.
                    Standards
                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-05-04-00190    ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    8
                                                                                                 Report Template Version = 09-08-04




Δ   D R U G          C A R D                         M A T E R I A L S                                       




                  As mentioned previously, CMS requires sponsors’ materials to provide
                  information deemed necessary to promoting beneficiaries’ informed
                  choice. When considering the information needed to inform
                  beneficiaries’ choice, it is helpful to use the following framework. To
                  make an informed decision about enrolling in the Medicare-Approved
                  Drug Discount Card program (as opposed to other drug coverage
                  options), beneficiaries need to understand:
                  o 	 Whether the drug card program itself applies to them (their
                      eligibility), and
                  o 	 The benefits and limitations of the drug card program.

                  To make an informed decision about enrolling in a particular drug card,
                  beneficiaries need to understand:
                  o 	 That there are multiple drug cards to choose from, and

                  o 	 How drug cards can vary, so they can compare cards and decide
                      which card is best for them.

                  CMS requires that sponsors’ pre-enrollment packets include information
                  relevant to this decision framework, including eligibility requirements;
                  disclaimers on key aspects of program benefits; and information about
                  features that vary among drug cards, such as enrollment fees, drug
                  prices, and pharmacy networks.

                  Our assessment of whether sponsors’ materials promote informed choice
                  for beneficiaries follows in three parts. First, to convey this required
                  information, drug card sponsors distribute information to potential
                  enrollees. Thus we first assessed materials used in outreach, including
                  which materials are used, how they are distributed, how many
                  beneficiaries potentially received them, and barriers to distributing
                  materials through outreach. Second, sponsors’ materials must supply
                  potential enrollees with required information. We assessed this by
                  looking at compliance of materials. Third, sponsors’ materials must be
                  clear and understandable to potential enrollees who will use the
                  information in making decisions about enrollment. We addressed this
                  topic by assessing whether beneficiaries understand key aspects of the
                  drug card program, as it would apply to them, after reading sponsors’
                  materials.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    9
                                                                                                           Report Template Version = 09-08-04




D   R U G             C A R        D          M A T               E R           I A L S                   




                            Materials used in outreach           By the end of July 2004, 47 of the
                                                                 62 drug card sponsors we
                           interviewed had engaged in outreach to inform beneficiaries about their
                           drug cards. These efforts were designed to reach out to beneficiaries
                           rather than rely on them to seek out information on sponsors’ drug
                           cards. The remaining drug card sponsors made information available to
                           beneficiaries in more passive ways, such as through Web sites or call-in
                           centers. Of the 15 sponsors not conducting outreach activities at the
                           time of our interviews, 9 indicated that they had plans to begin doing so
                           by September 2004.
                           Nearly all drug card sponsors that engaged in outreach distributed
                           pre-enrollment packets to beneficiaries, rather than relying solely on
                           promotional advertising
                           Of the 47 drug card sponsors that conducted outreach, 46 used
                           pre-enrollment packets in these efforts. Pre-enrollment packets are
                           required to contain information needed to promote beneficiaries’ ability
                           to make informed decisions regarding enrolling in the program and
                           selecting the appropriate drug card. In addition to distributing
                           pre-enrollment packets, many sponsors also engaged in advertising
                           campaigns to encourage beneficiaries to inquire about their drug cards.
                           Drug card sponsors most commonly distributed pre-enrollment packets
                           through the mail, but many also provided them to beneficiaries in person
                           The majority of drug card sponsors distributed pre-enrollment packets
                           via traditional direct mail campaigns, as noted in Table 1 below.


                        TABLE 1: Number of Drug Card Sponsors That Distributed Pre-Enrollment
                        Packets to Beneficiaries, by Outreach Method
                                                                                                                 Number of Drug Card Sponsors
                        Sponsors’ Outreach Method                                                                That Used Method to Distribute
                                                                                                                        Pre-Enrollment Packets

                        Direct Mail/E-mail                                                                                                  32

                        In-Person Outreach to Beneficiaries                                                                                 21

                        Providing Written Material for Distribution                                                                         14

                        Other                                                                                                                4

                        Total (Unduplicated) Drug Card Sponsors That Used Pre-
                                                                                                                                            46
                        Enrollment Packets in at Least One Outreach Method
                      Source: Office of Inspector General analysis of drug card sponsor interviews, 2004.




    OEI-05-04-00190        ASSESSMENT    OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM     10
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         Sponsors used direct mail to deliver their pre-enrollment packets to as
                         few as 2,250 beneficiaries and as many as 4 million beneficiaries. The
                         median number of beneficiaries targeted by a sponsor’s direct mail
                         campaign was 270,000.23
                         However, the pre-enrollment packet material alone may not be
                         sufficient to explain the program or promote informed choice. Some
                         drug card sponsors noted the difficulty of explaining the program in a
                         written format. One sponsor noted that the complexity of the program
                         was difficult to capture in a “small brochure” and “necessitates face-to
                         face contact where you can walk the beneficiary through the program.”

                         In fact, many drug card sponsors did engage in in-person outreach to
                         market their drug cards. Some drug card sponsors provided
                         information to beneficiaries at town hall meetings and health fairs.
                         Others made presentations about their drug cards at senior centers,
                         pharmacies, and various other venues. In these settings, drug card
                         sponsors not only distributed pre-enrollment packets, but also provided
                         in-person education about their cards and were available to answer
                         beneficiaries’ questions and resolve confusion that may be hindering
                         beneficiaries’ decisions about enrolling. However, due to the time-
                         consuming and labor-intensive nature of this approach, fewer
                         beneficiaries received their pre-enrollment packets in this manner than
                         by mail. The number of beneficiaries at these events ranged from a few
                         to 500, with a median of 33 beneficiaries. The median number of events
                         attended or held by a drug card sponsor was 15.

                         Another method drug card sponsors employed was providing third-party
                         entities with pre-enrollment packets to distribute to beneficiaries on
                         behalf of the sponsor. Typically these third-party entities were
                         participating pharmacies, but they also included physicians’ offices,
                         senior centers, and several other health care and government entities.
                         This approach allows beneficiaries to receive information and ask
                         questions about the drug cards from a trusted health-care professional.
                         It also has the potential to reach a broader array of beneficiaries than
                         the face-to-face presentations. The median number of beneficiaries
                         targeted with this approach was 33,750.

                         While beneficiaries are more likely to have confidence in information
                         received from a trusted health care professional, there is the potential
                         that some may enroll in the drug card offered by the trusted third-party
                         and not receive the benefit of comparison shopping. As one sponsor
                         indicated, “People are pretty tied to their pharmacist and will listen to

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   11
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         their advice.” Another sponsor indicated concern about the
                         consequences of pharmacists’ promoting their card. They asked, if a
                         pharmacy was promoting one card, “would the beneficiary get
                         information from the pharmacist about what is the best card [for the
                         beneficiary]?”

                         Finally, four drug card sponsors sought to educate people who would be
                         in a position to educate beneficiaries. This included conducting
                         seminars with local businesses and sending pre-enrollment packets to
                         church leaders and State staff.
                         Thirty-five of the 47 drug card sponsors that conducted outreach used
                         advertising materials
                         Although most sponsors indicated that they relied on pre-enrollment
                         packets as their main form of outreach, 35 of the 47 sponsors conducting
                         outreach also used advertising materials. In these cases, an
                         advertisement may be the only outreach material seen by beneficiaries
                         who use the advertisement to decide whether to contact the sponsor or
                         CMS for more information.

                         As with pre-enrollment packets, drug card sponsors reported that they
                         primarily distributed advertising materials via direct mail campaigns.
                         They also relied on mass media, primarily using print advertisements.
                         Substantially fewer sponsors advertised on radio or television, despite
                         the fact that these offer the potential to reach far broader audiences.

                         Drug card sponsors also used other, less conventional means to
                         advertise their drug cards. Sixteen drug card sponsors distributed
                         advertisements as part of their in-person outreach and 10 engaged third
                         parties to display or distribute their advertisements.
                         Sponsors cited a variety of obstacles to informing beneficiaries about their
                         drug cards
                         According to 29 of the 33 sponsor companies we interviewed, some CMS
                         requirements or processes present barriers to outreach. We did not
                         independently validate sponsor companies’ concerns but offer their
                         feedback as we received it, as it provides an important perspective on
                         the topic of promoting informed choice. Twenty-six of these sponsor
                         companies indicated problems with the CMS Medicare Prescription
                         Drug Discount Card and Transitional Assistance Program, Information
                         & Outreach Materials Guidelines. Their primary frustration was that
                         the guidelines were constantly changing, often leading to multiple
                         iterations through the approval process. Twenty-two of the 29 sponsor
                         companies also felt that the process for reviewing and approving the

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   12
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         materials presented problems. Twelve of these provided general
                         comments about the process, describing it as “cumbersome,” “tedious,”
                         and the “most frustrating challenge.” Twenty-one of the 22 sponsor
                         companies provided specific issues of concern, including inconsistent
                         review; length of the review process; unresponsiveness of CMS’s
                         contractor; and communication between CMS and its contractor,
                         resulting in confusion and inconsistent decisionmaking.

                         These issues have the potential to negatively affect the information that
                         beneficiaries receive about the program. Some impacts that sponsor
                         companies mentioned included their ability to get information into the
                         market in a timely way, their ability to alter their strategy in response
                         to changes in the market, and their creativity in testing new ideas or
                         options. One sponsor company found the review process so slow that
                         the sponsor was deterred from developing new materials. Another
                         refrained from correcting errors and improving a document because it
                         “didn’t have time to wait on the review process.”

                         On the other hand, the concerns mentioned by sponsor companies may
                         be related to the challenges of implementing a new program in a very
                         short timeframe. For example, as time went on, some sponsor
                         companies saw improvements in the review process. One summed up
                         this view, stating, “. . . the review/approval process was pretty rough at
                         the beginning . . . it was a learning stage. It has improved now.” In
                         addition, 13 sponsor companies, at the time of our interviews, indicated
                         that they had no problems with CMS’s contractor or had positive
                         comments about the process.



                              Compliance of materials         CMS requires sponsors to include
                                                              information necessary for
                         promoting beneficiaries’ informed choice in their pre-enrollment
                         packets. These requirements include information that beneficiaries can
                         use to assess whether the program applies to them, whether the
                         program will benefit them, and information for choosing among drug
                         cards.
                         Of the 62 pre-enrollment packets we reviewed, we found 39 that were
                         missing some information required by CMS
                         These 39 noncompliant pre-enrollment packets were used in sponsors’
                         outreach to target approximately 8.6 million beneficiaries, primarily
                         through direct mail. These 39 packets represent 20 unique
                         pre-enrollment packets because some sponsor companies developed

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   13
                                                                                                            Report Template Version = 09-08-04




D   R U G             C A R           D        M A T               E R           I A L S


                            identical or “template” pre-enrollment packets that were used by
                            multiple drug cards.24
                            Of the 39 noncompliant pre-enrollment packets, 32 did not meet 1 or
                            2 requirements. The remaining 7 did not meet 3 or more requirements;
                            2 of these pre-enrollment packets did not meet 14 requirements.
                            The seven most commonly missed requirements relate to eligibility,
                            program disclaimers, choice of cards, and comparative drug card
                            information
                            Of the 25 requirements we assessed, 7 requirements were missed most
                            often by pre-enrollment packets. Each of these 7 requirements was
                            missed by between 5 and 20 pre-enrollment packets. All other
                            requirements were missed by zero to two pre-enrollment packets. See
                            Appendix B for results for all requirements we assessed.

                            The seven most commonly missed requirements relate to four
                            categories: eligibility, program disclaimers, required information
                            indicating that beneficiaries have a choice of cards, and information
                            needed to compare the prices/discounts offered by drug cards. (See
                            Table 2.)


                        TABLE 2: Requirements Missed Most Often in Pre-Enrollment Packets
                                                                                                                                  Pre-Enrollment
                        Key Program
                                                     Requirements                                                                 Packets Not in
                        Feature
                                                                                                                               Compliance (of 62)
                                                     Income definition for determining eligibility for
                        Eligibility                                                                                                               7
                                                     Transitional Assistance
                                                     Program description disclaimer: Not intended to
                                                                                                                                                 18
                                                     replace other drug benefits
                                                     Program description disclaimer: Not a Medicare
                                                                                                                                                 17
                        Program                      benefit
                        Disclaimers                  Drug prices/discounts disclaimer: Discounts subject
                                                                                                                                                 17
                                                     to change [over time]
                                                     Pharmacy network disclaimer: Beneficiaries must use
                                                                                                                                                  9
                                                     network pharmacies for discount and $600 credit
                                                     Disclaimer: Beneficiaries may only be enrolled in one
                        Choice of Cards                                                                                                          20
                                                     card at a time
                        Comparative
                                             How to find information on drug prices/discounts,
                        Program                                                                                                                   5
                                             including Medicare price compare Web site
                        Information
                        Total (Unduplicated) Pre-Enrollment Packets Not in Compliance With at
                                                                                                                                                 39
                        Least One of the Seven Requirements
                      Source: Office of Inspector General analysis of selected sponsor materials, 2004.


                            Eligibility. CMS requires that pre-enrollment packets include eligibility
                            criteria that beneficiaries can use to determine whether they are eligible

    OEI-05-04-00190         ASSESSMENT    OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   14
                                                                                                     Report Template Version = 09-08-04




D 	R U G           C A R    D           M A T               E R           I A L S


                      for the drug card program and for the Transitional Assistance credit.
                      We found that nearly all pre-enrollment packets included required
                      eligibility criteria for both the drug card program and the credit. For
                      example, all but two pre-enrollment packets stated that beneficiaries
                      may be eligible for the $600 Transitional Assistance credit if “your
                      income, plus your spouse’s income (if married) is no more than . . .
                      Single: $12,569 or less, Married: $16,862 or less.”25
                      However, we found that seven pre-enrollment packets did not include
                      the following required definition of what counts as income:

                            Income includes money that you receive through retirement
                            benefits from Social Security, Railroad, the Federal or State
                            governments, or other sources, and benefits you receive for a
                            disability or as a Veteran, plus any other sources of the type
                            that you would report for tax purposes.26
                      CMS requires that sponsors’ enrollment instructions include a
                      definition of income. In some cases, CMS contractor’s reviewers may
                      have assumed that these sponsors included enrollment instructions in
                      their pre-enrollment packets. However, four of the seven noncompliant
                      pre-enrollment packets did not include a separate enrollment
                      instructions document in their pre-enrollment packet.
                      Program disclaimers. We found four disclaimers that were frequently not
                      included in pre-enrollment packets. These include two disclaimers
                      related to describing the program, one related to discounts, and one
                      related to pharmacy networks. These disclaimers provide important
                      information about the limitations of the program which may help
                      beneficiaries compare this program to other drug coverage options.
                      The following two disclaimers relate to describing the program:
                      o 	 [Program name] is not intended to replace prescription drug
                           benefits obtained through participation in insurance plans
                           including a Medicare Advantage plan, a Medigap policy, Medicaid,
                           or an employer or retiree plan.
                      o 	 [Program name] is a prescription drug discount card program that
                           is approved by Medicare but it is not a Medicare benefit.27
                      We found that 18 pre-enrollment packets were missing the first
                      disclaimer, and all but 1 of these were also missing the second
                      disclaimer.



 OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   15
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         The third frequently missed disclaimer is required for materials that
                         include “any discussion of discounts.” These materials must include a
                         disclaimer that discounts can change (i.e., over time). We found that
                         17 pre-enrollment packets did not meet this requirement. This
                         noncompliance is explained by a miscommunication about CMS policy
                         changes. CMS’s contractor interpreted a new discount disclaimer to
                         supersede this original disclaimer, although this interpretation was not
                         intended by CMS.28
                         The fourth frequently missed disclaimer relates to descriptions of
                         pharmacy networks. CMS requires pre-enrollment packets to include
                         the following disclaimer about pharmacy networks:

                               Enrollees must use [Approved Card Program]’s network
                               pharmacies in [service area] to obtain the prescription
                               discount we offer and to apply Transitional Assistance to
                               the prices of your drug. A network pharmacy is a
                               pharmacy where our discounted drugs can be purchased
                               and Transitional Assistance can be used.29
                         Although all but one pre-enrollment packet we reviewed indicated that
                         enrollees must use network pharmacies, we found that nine pre-
                         enrollment packets did not include the full information required in the
                         disclaimer—namely, that network pharmacies are also places that
                         Transitional Assistance can be used. This noncompliance is also
                         explained by a miscommunication of CMS policy changes. CMS’s
                         contractor interpreted a CMS policy clarification related to describing
                         pharmacy networks to supersede this original disclaimer, although this
                         interpretation was not intended by CMS.30
                         Choice of cards. The topic of choice of cards is slightly different from the
                         other requirements we examined. Although the MMA notes the
                         importance of promoting beneficiaries’ informed choice, drug card
                         sponsors’ materials are not required to explicitly state that beneficiaries
                         have a choice of drug cards. Despite this, we found 16 pre-enrollment
                         packets that explicitly state that beneficiaries have a choice of cards.
                         One pre-enrollment packet states, “There is a lot to know before you
                         choose a discount card program . . . . We will help you find the program
                         that is right for you.” Another pre-enrollment packet indicates, “. . . you
                         can choose any Medicare-approved discount card you want. But you can
                         choose only one.”

                         However, CMS does require that pre-enrollment packets include
                         information that implicitly indicates that beneficiaries have a choice of

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   16
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         cards (for example, how to disenroll in one card and enroll in a new one).
                         We assessed whether pre-enrollment packets included the required
                         statement: “you may be enrolled in only one Medicare-Approved [drug
                         discount card] at one time.”31 Twenty pre-enrollment packets did not
                         include this statement.

                         For 13 of these pre-enrollment packets, CMS contractor’s reviewers did
                         not apply the correct review protocol to the material, which accounts for
                         the noncompliance. When submitting materials for review and
                         approval, sponsors are not required to designate whether a material will
                         be included in their pre-enrollment packet. Pre-enrollment packets can
                         contain a variety of different materials, such as a Summary of Program
                         Features, enrollment instructions, and forms. However, some sponsors
                         included simple brochures in their pre-enrollment packets, as opposed
                         to their Summary of Program Features. Because of this, reviewers
                         assumed that materials submitted as “direct mail brochures” were not
                         pre-enrollment packet materials but advertisements. Sponsors that
                         included a brochure in their pre-enrollment packet in place of their
                         standard explanatory materials may have been unclear on CMS’s
                         requirements, or may have intended to take advantage of the fact that
                         CMS does not require them to report how they intend to use submitted
                         materials.
                         Comparative information. Nearly all pre-enrollment packets included
                         required information about some comparative features, including
                         annual enrollment fees, and a description of how to get more
                         information about pharmacies in a drug card’s network. In addition, all
                         pre-enrollment packets included sponsor contact information, and most
                         listed the CMS Web site. (See Table 5 in Appendix B for more detail.)
                         However, we found five pre-enrollment packets that did not meet the
                         requirement to describe how to get more complete information about
                         drug prices and/or discounts, including both visiting the Medicare price
                         compare Web site and contacting the drug card sponsor. Referring
                         beneficiaries to Medicare’s Web site is especially relevant since
                         beneficiaries can use the site to compare different drug cards’ prices on
                         the specific drugs the beneficiary uses.
                         Of the 20 advertising materials we reviewed, 15 were noncompliant with one
                         or more of the requirements we assessed
                         Of the 20 advertising materials we reviewed, 15 did not include
                         information related to at least one of the 2 to 7 requirements we
                         assessed. These 15 noncompliant advertisements were used to target


    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   17
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         approximately 4.7 million beneficiaries through direct mail and an
                         unknown number of beneficiaries through a print advertisement and a
                         pharmacy flier. These 15 materials represent 7 unique advertising
                         materials, since 1 “template” postcard was used by 9 cards. (See
                         Appendix B for results for all requirements we assessed.)

                         A communication error between CMS and its contractor accounts for all
                         the noncompliance that we found. All 15 advertisements were missing a
                         description of how to get more complete information about discounts,
                         including visiting the Medicare Web site and contacting the sponsor.
                         Thirteen of these fifteen were also missing the disclaimer that discounts
                         are subject to change.32 Similar to pre-enrollment packets, CMS’s
                         contractor considered both of these requirements for advertisements to
                         be superseded by a new requirement.33
                         CMS oversight processes did not prevent noncompliance found relatively
                         early in the program
                         CMS oversight processes, including Information and Outreach
                         Materials Guidelines for sponsors’ materials, review and approval of
                         materials, and CMS model documents, did not prevent the
                         noncompliance we found. CMS provided sponsors with some model
                         documents, including a model cover letter for pre-enrollment packets, a
                         model member handbook, and model enrollment instructions and forms.
                         We found evidence that many drug card sponsors were interested in
                         following model documents. Fifty-nine of 62 pre-enrollment packets
                         followed at least some model language offered by the CMS model
                         handbook, model enrollment instructions, or model cover letter.
                         However, CMS staff did not develop a model Summary of Program
                         Features. CMS staff indicated that a model Summary of Program
                         Features may have assisted sponsors in understanding the
                         requirements for their pre-enrollment packets.

                         All the materials we reviewed were approved by CMS relatively early in
                         the program (between March and July 2004), which was a time
                         characterized by very tight deadlines and by many changes and
                         clarifications regarding requirements for sponsors’ materials. These
                         constraints increased the potential for communication problems both
                         with sponsors and with CMS’s contractor.

                         We found three sources of error that explain all noncompliance found in
                         39 pre-enrollment packets and 15 advertisements: reviewer error,
                         sponsor error, and miscommunication about policy changes. Each
                         source of error is described below. Many of the 39 noncompliant

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   18
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         pre-enrollment packets had more than one source of error, so the
                         following description contains a duplicated count of pre-enrollment
                         packets. (See the final table in Appendix B for an unduplicated
                         accounting of sources of error.)
                         Reviewer error. Twenty of the thirty-nine noncompliant pre-enrollment
                         packets were noncompliant due, at least in part, to reviewer error.
                         Eleven of these cases relate to two “template” pre-enrollment packets.
                         Some reviewer error may be attributable to challenges CMS’s contractor
                         faced in the early implementation of the program, including frequent
                         changes to review policies, high volume of materials for review, and
                         confusing communication from CMS.
                         Sponsor error. Eighteen of the thirty-nine noncompliant pre-enrollment
                         packets were noncompliant, at least in part, due to sponsor error (such
                         as using an advertising brochure in the pre-enrollment packet as
                         opposed to standard explanatory materials, or failing to include
                         enrollment instructions in their pre-enrollment packet). Sponsors may
                         have failed to include correct materials in their pre-enrollment packets
                         due to unclear standards. For instance, CMS’s original Information and
                         Outreach Materials Guidelines do not clearly explain that sponsors are
                         responsible for including all required materials in any packet to be used
                         directly for enrollment. CMS had not used formal methods of
                         communicating to sponsors (for example, a bulletin) to clarify
                         pre-enrollment packet requirements. Although CMS staff indicated
                         that this issue might have been raised during weekly conference calls
                         with sponsors, CMS did not record or distribute minutes for these calls.
                         However, CMS has somewhat clarified this issue in its revised
                         guidelines.

                         We also found evidence that some sponsors did not follow CMS
                         requirements prior to distributing materials. For instance, some
                         sponsors apparently changed materials after approval and did not notify
                         CMS. In most cases, these changes were minor. In addition, we noted
                         that some sponsors did not revise materials to address stipulations on
                         approval. After reviewing a sample of 105 materials, CMS’s contractor
                         found that 61 materials failed to address stipulations. Finally, we found
                         two instances in which it appears that sponsors used unapproved
                         materials. CMS reserved the right to conduct a review of sponsors’
                         materials in the marketplace, but has not conducted this review.
                         Miscommunication of policy changes. Twenty-three of the thirty-nine
                         noncompliant pre-enrollment packets and all 15 advertisements were

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   19
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         noncompliant due to miscommunication about policy changes. CMS and
                         its contractor developed an “issues matrix” to communicate policy
                         changes and to identify and resolve questions about interpreting
                         requirements for sponsors’ materials. When CMS resolved a policy
                         question, the matrix would be updated with the decision and decision
                         date. Reviewers used the issues matrix along with a standard review
                         protocol while reviewing sponsors’ materials. Although this system
                         appeared to work effectively to address many policy questions, it
                         apparently failed in relation to disclaimers for discounts and pharmacy
                         networks, as previously discussed. In one case, CMS issued a policy
                         clarification through a brief e-mail, which was outside CMS’s typical
                         communication structure.

                  Beneficiary understanding of materials               Prior to enrolling in a drug
                                                                       card, beneficiaries need to
                         receive key information that is relevant to making an informed choice.
                         In addition, this information must be understandable. Materials that
                         include required information do not fully inform beneficiaries’ decisions
                         unless they can grasp key concepts, including eligibility, benefits and
                         limitations of the card, choice of cards, and comparative information to
                         select the card that best meets their needs. We assessed beneficiary
                         understanding of five key program features related to these decision
                         elements: eligibility, program limitations related to drugs covered,
                         limitations related to drug prices, choice of cards, and comparative
                         enrollment fee information.
                         Each of five key features was understood by between 54 to 74 percent of
                         beneficiary respondents reading pre-enrollment packets; however, only
                         21 percent understood all five
                         We asked 113 beneficiaries to review selected pre-enrollment packets to
                         assess whether they could understand five key program features. In
                         doing so, we found that each individual feature was understood by a
                         majority of respondents. In fact, all but three respondents understood
                         at least one key program feature. Table 3 outlines these results. (In all
                         cases, denominators vary depending on the number of respondents
                         answering each question. See Appendix C for more detail.)

                         Respondents misunderstood key program features that were
                         particularly complex (such as eligibility), not explicitly stated (such as
                         choice of cards), and discussed only briefly (such as limitations on drugs
                         covered). Nearly 80 percent of beneficiaries we interviewed did not
                         understand all key features of the program.


    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   20
                                                                                                               Report Template Version = 09-08-04




D   R U G        C A R           D        M A T              E R           I A L S                       





                          TABLE 3: Proportion of Respondents Who Understood Key Program Features
                          Based on Reading Sponsors’ Pre-Enrollment Packets
                                                                                                                  Transitional    Non-Transitional
                                                                                Proportion of
                                                                                                                  Assistance-         Assistance-
                          Key Program Feature                               Respondents Who
                                                                                                                      Eligible            Eligible
                                                                       Understood Key Feature
                                                                                                                 Respondents        Respondents*

                          Eligibility                                                                  58%               63%                  55%

                          Program Limitations: Drugs
                                                                                                       59%               44%                  64%
                          Covered Can Change
                          Program Limitations: Drug
                                                                                                       74%               67%                  78%
                          Prices Can Change

                          Choice of Cards                                                              54%               45%                  59%

                          Comparative Information:
                                                                                                       58%               50%                  62%
                          Annual Enrollment Fee

                          All Key Program Features                                                     21%               22%                  21%
                        * This category includes 13 respondents whose eligibility for Transitional Assistance could not be determined.
                        Source: Office of Inspector General analysis of Medicare beneficiary interviews, 2004.

                               A greater proportion of Transitional Assistance-eligible (TA-eligible)
                               respondents understood eligibility than those not eligible for
                               Transitional Assistance; however, this was not the case for other topics.
                               Sixty-three percent of TA-eligible respondents understood eligibility,
                               compared to 55 percent of non-TA-eligible respondents. (See Appendix
                               C for further results related to beneficiary understanding by eligibility
                               status for Transitional Assistance.)
                               Eligibility: Fifty-eight percent of respondents correctly assessed their
                               eligibility; most confusion concerned income requirements
                               Based on the material reviewed, 58 percent of respondents were able to
                               correctly determine their program eligibility.34 Some respondents
                               correctly determined their eligibility despite indicating confusion about
                               eligibility at some point in the interview. Respondents had to take into
                               consideration their Medicare status, income, and other prescription
                               drug coverage to determine their eligibility for both the drug card
                               program and the Transitional Assistance credit.35
                               A greater proportion of respondents correctly assessed their eligibility
                               for the Transitional Assistance credit than correctly assessed their
                               eligibility for the drug card program. Eighty-four percent of
                               respondents correctly judged whether they were eligible for the
                               Transitional Assistance credit. Of these, the vast majority provided at
                               least one correct reason for their eligibility (for example, low income,
                               lack of other drug coverage). However, only 66 percent of respondents

      OEI-05-04-00190          ASSESSMENT    OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   21
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         correctly judged that they were eligible for the drug card program.36 Of
                         these, 15 respondents gave an incorrect reason for their eligibility.

                         Respondents who did not understand their eligibility for the drug card
                         program most frequently misunderstood the nature of the income
                         requirement described in pre-enrollment packets. Some respondents
                         erroneously believed the drug card program to have income
                         requirements. In addition, many respondents did not understand that
                         the drug card program and the Transitional Assistance credit were two
                         separate programs with distinct eligibility requirements. For instance,
                         some respondents characterized the material as describing a program
                         solely for low-income individuals. Eligibility for the Part D prescription
                         drug benefit will be similarly complex, with low-income beneficiaries
                         eligible for enhanced drug coverage.

                         In addition to income, respondents expressing confusion about eligibility
                         mentioned specific confusion about the role of existing prescription drug
                         coverage and current prescription drug expenditures. Twelve
                         respondents indicated concern that existing drug coverage (other than
                         Medicaid) disqualified them from the drug card program. Existing
                         prescription drug coverage does exclude beneficiaries from receiving
                         Transitional Assistance but not from enrolling in the drug card
                         program. Nine respondents reported that the amount they spent on
                         drugs either qualified them or made them ineligible for the drug card
                         program. However, prescription drug expenditures are not a factor in
                         assessing eligibility for either the drug card program or the Transitional
                         Assistance credit.
                         Program limitations: Between 59 and 74 percent of respondents understood
                         key limitations of the drug card program
                         More respondents understood that drug prices could change than that
                         drugs covered could change. Seventy-four percent of respondents
                         understood that drug prices could change. Most pre-enrollment packet
                         selections read by respondents described discounts or drug prices, and
                         many included a percent discount that beneficiaries could expect.

                         However, only 59 percent of respondents understood that drugs covered
                         could change, perhaps due to a lack of description of drugs covered in
                         the pre-enrollment packet. Aside from the disclaimer that drugs
                         covered could change, pre-enrollment packet selections tended to
                         mention the topic of drugs covered only briefly. For example, the vast
                         majority of selections read by respondents did not mention specific
                         drugs covered by the drug card.

    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   22
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R    D           M A T               E R           I A L S


                         Choice of cards: Fifty-four percent of respondents understood that they had
                         a choice of Medicare-approved drug discount cards
                         Overall, 54 percent of respondents interviewed correctly identified that
                         more than one Medicare-approved drug discount card is available, based
                         on the pre-enrollment packet they reviewed.37 Twenty-six percent of
                         respondents incorrectly identified that the card described in the pre-
                         enrollment packet they read was the only one available, and 20 percent
                         did not know if there were other available cards. Although most
                         selections read by beneficiaries implicitly indicated that beneficiaries
                         have a choice of drug cards, CMS does not require sponsors to explicitly
                         state that beneficiaries have a choice of drug cards. Respondents
                         reading pre-enrollment packets understood this topic least often out of
                         all topics we assessed.

                         Some beneficiaries indicated that they knew from sources other than
                         the material they reviewed that several Medicare-approved drug
                         discount cards were available. Five of these respondents volunteered
                         that, based on the selected material reviewed, they were led to believe
                         there was only one available Medicare-approved drug discount card, but
                         that they knew from outside sources that there were others.38
                         Comparative information: Fifty-eight percent of respondents correctly
                         determined the annual enrollment fee of the drug card
                         For the drug card offered by the pre-enrollment packet they reviewed,
                         58 percent of respondents correctly assessed both the amount and the
                         frequency of the enrollment fee, if applicable.39 For the amount of the
                         enrollment fee alone, 73 percent of respondents reported a correct
                         response, and 75 percent of respondents reported a correct response for
                         the frequency of the enrollment fee alone.
                         Respondents reading advertisements understood key program features less
                         often than those reading pre-enrollment packets
                         Overall, respondents reading advertisements answered questions
                         correctly less often than respondents reading pre-enrollment packets.
                         Twenty-seven percent answered the vast majority of test questions
                         correctly, compared with nearly half of respondents who reviewed
                         pre-enrollment packets. In contrast, 57 percent of respondents reading
                         advertisements answered half or fewer test questions correctly. About




    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   23
                                                                                                        Report Template Version = 09-08-04




D   R U G             C A R     D          M A T               E R           I A L S


                         one-third of respondents who reviewed pre-enrollment packets
                         answered half or fewer of their questions correctly.40 (See Table 4
                         below.)

                          TABLE 4: Proportion of Key Test Questions Answered Correctly
                          Proportion of Test Questions                        Respondents Reviewing                Respondents Reviewing
                          Answered Correctly                                         Advertisements                Pre-Enrollment Packets

                          50% or Less                                                                    57%                           32%

                          51%-79%                                                                        16%                           22%

                          80% or More                                                                    27%                           46%

                        Source: Office of Inspector General analysis of Medicare beneficiary interviews, 2004.


                         Similar to beneficiaries who read pre-enrollment packets, a greater
                         proportion of respondents who read advertisements correctly assessed
                         their eligibility for the Transitional Assistance credit than correctly
                         assessed their eligibility for the drug card program. Of the
                         14 respondents who were asked to judge their eligibility for the
                         $600 Transitional Assistance credit, 11 both understood their eligibility
                         and provided the correct reason for their eligibility. Of the 20
                         beneficiaries asked to judge their eligibility for the drug card program,
                         11 understood that they were eligible, and 4 of these gave the correct
                         criteria for their eligibility.

                         Roughly half of respondents reading advertisements understood choice
                         of cards and enrollment fee. Sixteen of the 34 respondents asked were
                         able to correctly identify that there is more than one Medicare-approved
                         drug discount card available. Of the 14 respondents asked the amount
                         of the enrollment fee, 8 correctly reported the amount of the fee and
                         6 responded that they did not know the amount.




    OEI-05-04-00190      ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   24
                                                                                                     Report Template Version = 09-08-04




Δ   I M P L I C A T I O N S :                                          N E W                     D R U G             B E N E F I T 





                      Under Medicare’s new Part D prescription drug benefit, beneficiaries
                      will face choices very similar to those they have under the drug card
                      program. They will need complete, accurate, and understandable
                      information about the Part D drug benefit to assess whether the
                      program is appropriate for them and, if so, which prescription drug plan
                      best meets their needs. For instance, beneficiaries will need to
                      understand whether they are eligible for the basic Part D drug benefit
                      or the subsidies available to low-income individuals. They will need to
                      understand the advantages and limitations of the drug benefit, as well
                      as how to compare different plans available to them. While similar,
                      many of the choices facing beneficiaries will be more complex under the
                      Part D drug benefit, and will have greater implications for beneficiaries
                      who delay enrollment.

                      CMS will play a lead role in providing quality beneficiary education
                      while reaching the number of beneficiaries who need to be informed
                      about the new drug benefit. To do this, CMS will need to first establish
                      effective oversight systems. Second, these oversight systems should
                      ensure that prescription drug plan sponsors’ materials provide clear
                      information about their plans. Finally, CMS outreach to beneficiaries
                      must provide key comparative information about prescription drug
                      plans to ensure that all beneficiaries are aware of their options under
                      the Part D drug benefit.

                      In light of our review of drug card materials, and to promote informed
                      choice for beneficiaries, we believe that CMS should consider the
                      following as it implements oversight of prescription drug plan sponsors’
                      materials and develops outreach for the full prescription drug benefit
                      under Part D.
                      CMS Management and Communication Systems
                      CMS should anticipate implementation challenges to ensure that its
                      management and communication systems are consistent, clear, and
                      formalized.
                      Anticipate implementation challenges. As we found with the drug card
                      program, CMS will likely run into challenges in the early months of
                      implementing the new drug benefit. CMS may find it must make
                      unexpected clarifications to policies or processes and will face high
                      volumes of materials for review as plan sponsors will be eager to begin
                      marketing their programs. CMS may want to anticipate these

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   25
                                                                                                     Report Template Version = 09-08-04




I M P L I C A T I O N              S :               N      E W                  D R           U G        B   E N E F        I T


                      implementation challenges by ensuring that there are enough staff and
                      resources to review the high volume of materials likely to be submitted
                      in the few months before prescription drug plan marketing begins.
                      CMS will need to ensure that all reviewers are well trained on reviewer
                      protocols and should consider pretesting review protocols and the
                      review process.
                      Establish consistent, clear communication. CMS should ensure that it uses
                      consistent and clear communication with prescription drug plan
                      sponsors and with CMS’s contractor. Clear communication is especially
                      important given the abbreviated timeframe CMS has to implement the
                      full Part D drug benefit. CMS should ensure that plan sponsors and
                      reviewers receive the same information related to materials and should
                      coordinate instructions to both the CMS contractor and CMS regional
                      staff who will review materials for Medicare Advantage prescription
                      drug plans.
                      Formalize communication. Further, CMS should formalize communication
                      with prescription drug plan sponsors and reviewers when feasible.
                      While frequent conference calls may be an efficient way to address
                      questions and any unforeseen issues, policy changes, clarifications, and
                      guidance discussed on these calls should be documented and distributed
                      to plan sponsors and reviewers. CMS may want to continue to use an
                      “issues matrix,” such as the one used in the drug card program, to track
                      clarifications and instructions to reviewers.
                      CMS Oversight of Prescription Drug Plans’ Materials
                      CMS oversight of prescription drug plan sponsors’ pre-enrollment
                      packets and advertising materials should ensure that beneficiaries have
                      all the information necessary to make informed decisions about
                      participating in the Part D drug benefit. CMS requirements and
                      oversight mechanisms should aim to facilitate the development and
                      distribution of informative pre-enrollment packets and responsible
                      advertisements. In particular, CMS should consider incorporating the
                      following items in its oversight of plan sponsors’ materials:
                      Require development of pre-enrollment materials that contain specified
                      information needed prior to enrollment. CMS should consider requiring that
                      prescription drug plan sponsors develop pre-enrollment packets (or their
                      equivalent) for the Part D drug benefit. Similar to the drug card
                      program, CMS should specify the minimum information that these
                      pre-enrollment materials should contain to ensure that beneficiaries can
                      use them to make an informed decision about enrolling.

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   26
                                                                                                     Report Template Version = 09-08-04




I M P L I C A T
 I O N             S :               N      E W                  D R           U G        B   E N E F        I T


                      CMS may want to keep these requirements as concise as possible. In
                      our interviews, many drug card sponsors reported that pre-enrollment
                      packet requirements and the review and approval process for their
                      materials were burdensome. Prescription drug plan sponsors may also
                      find the review process burdensome, and thus may be unlikely to
                      dedicate the time and resources needed to develop these explanatory
                      materials unless required.

                      Requirements that result in extensive pre-enrollment packets may
                      discourage prescription drug plan sponsors from using them in their
                      outreach, due to printing and distribution costs.
                      Identify pre-enrollment packet materials. If CMS decides to require
                      pre-enrollment packets (or their equivalent), it will need to require
                      prescription drug plan sponsors to identify materials they will include
                      in their packets to facilitate correct review. Further, CMS should
                      clearly state that plan sponsors are responsible for including these
                      materials when they distribute enrollment forms. Prescription drug
                      plan sponsors should have no confusion about the information
                      beneficiaries should receive when preparing to enroll.
                      Provide model materials. To streamline requirements for and facilitate
                      compliance of materials, CMS should consider developing model
                      materials for prescription drug plan sponsors to use. We found evidence
                      that many drug card sponsors were interested in following model
                      documents. Because model materials are likely to be adopted by plan
                      sponsors, CMS should consider pretesting its model materials by
                      conducting focus groups or cognitive interviews with beneficiaries.
                      Require “choice of plans” statement. To ensure that beneficiaries realize
                      they have a choice when considering the Part D drug benefit, CMS could
                      require that prescription drug plan sponsors’ materials clearly state
                      this. Specifically, CMS could require that all materials, including
                      advertisements, include a CMS-sponsored label clearly stating that
                      beneficiaries have a choice of Medicare prescription drug plans,
                      describing the main ways in which plans vary, encouraging
                      beneficiaries to find the best plan to meet their needs, and providing
                      Medicare contact information to compare plans.
                      Spot check materials. CMS should consider conducting spot checks of
                      prescription drug plan sponsors’ materials in the marketplace to
                      determine whether plans are using unapproved outreach materials. If
                      CMS finds that plan sponsors are using such materials, it should take
                      enforcement measures to address noncompliant plan sponsors and

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   27
                                                                                                     Report Template Version = 09-08-04




I M P L I C A T
 I O N             S :               N      E W                  D R           U G        B   E N E F        I T


                      consider focusing more efforts on reviewing final submitted versions of
                      materials that were approved with stipulations.
                      CMS Outreach to Beneficiaries
                      CMS should enhance its outreach efforts to ensure that beneficiaries
                      have all information necessary to make informed decisions about
                      participating in the Part D drug benefit. Exposure to information about
                      a particular prescription drug plan alone may not provide beneficiaries
                      with a full understanding of the array of choices available. This could
                      result in beneficiaries’ signing up for the plan that was marketed to
                      them rather than the plan that best suits their health care needs. For
                      example, they may simply sign up for the plan that their pharmacist
                      has endorsed. Thus, CMS outreach will be a critical component in
                      promoting informed choice by providing comparative information on
                      prescription drug plans. CMS should consider the following steps in its
                      efforts to inform beneficiaries about the Part D drug benefit, to ensure
                      that beneficiaries can make an informed decision about their
                      enrollment.
                      Distribute regionally tailored letters at the beginning of the new drug benefit.
                      To facilitate beneficiaries’ informed choice at the beginning of the Part
                      D drug benefit, CMS could distribute to beneficiaries regionally tailored
                      letters that include a list of all prescription drug plans available in their
                      area. This letter could provide comparative information about these
                      plans, such as premiums and basic plan benefits. The letter could also
                      inform beneficiaries about the benefits and limitations of the program
                      and how to compare plans. For instance, the letter could indicate that
                      premiums vary, that plans’ formularies may vary, and that plans use
                      different networks of pharmacies.
                      Provide a short guide to choosing a prescription drug plan. In addition, CMS
                      could produce a short guide to choosing a prescription drug plan and
                      could require it to be included with all pre-enrollment packets. This
                      guide could reduce the burden on plan sponsors for sharing specific
                      information necessary to informing beneficiary choice. Alternatively,
                      CMS could require each pre-enrollment packet to include a section on
                      information “Medicare wants you to know.” CMS is a trusted source
                      and could give plan sponsors’ materials added credibility, as well as
                      point out the basic factors a beneficiary should consider when choosing
                      a plan.
                      Facilitate in-person education. Finally, CMS should continue to focus
                      efforts on in-person education and should consider facilitating and

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   28
                                                                                                     Report Template Version = 09-08-04




I M P L I C A T I O N              S :               N      E W                  D R           U G        B   E N E F        I T


                      promoting prescription drug plan sponsors’ efforts to inform
                      beneficiaries in person about the Part D drug benefit. Explaining the
                      new drug benefit in person provides the greatest opportunity to help
                      individual beneficiaries understand whether the Part D benefit is right
                      for them. Some drug card sponsors found in-person outreach to be more
                      effective than relying on written materials alone. Further, only
                      21 percent of beneficiary respondents were able to understand all key
                      program features after reading sponsors’ pre-enrollment packets.
                      In-person education allows beneficiaries to ask questions and resolve
                      confusion that may be hindering their decision about enrolling.

                      As part of CMS’s education and outreach efforts, CMS should continue
                      to emphasize local, in-person outreach. CMS currently partners with a
                      variety of community-based organizations to provide local outreach to
                      beneficiary populations that are sometimes difficult to reach. Congress
                      has allotted funds for CMS to enhance its in-person education efforts for
                      the Part D drug benefit (through the State Health Insurance Assistance
                      Program). In addition to these efforts, CMS should continue to promote
                      its toll-free hotline through which CMS representatives can provide
                      quality information and answer beneficiaries’ questions.

                      In addition to its own efforts, CMS should consider how to promote
                      prescription drug plan sponsors’ use of in-person outreach to
                      beneficiaries, including providing a forum in which plan sponsors can
                      interact with beneficiaries. For instance, CMS could leverage its
                      partnerships with community-based organizations, departmental
                      grantees, and senior groups to provide such forums and invite
                      prescription drug plan sponsors to provide in-person education to
                      beneficiaries. CMS could also partner with State and local legislators to
                      offer town hall-style meetings and invite regional plan sponsors to
                      participate.


                      AGENCY COMMENTS
                      CMS stated that it views the drug card as an important opportunity for
                      using “lessons learned” when implementing the new drug benefit and
                      agreed with most of the implications for the drug benefit that we
                      suggested. In fact, CMS noted that ongoing communications with OIG
                      throughout the course of this project have already allowed it to
                      incorporate some of our suggestions in the development and
                      implementation of the marketing rules, guidelines, and oversight for
                      sponsors’ materials and outreach to beneficiaries.


    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   29
                                                                                                  Report Template Version = 09-08-04




I M P L I C A T
 I O N                  S :               N       E W                 D R       U G        B   E N E F           I T


                   CMS noted that it has had substantially more time to plan for the drug
                   benefit, as compared to the drug card program, and thus has been able
                   to address our suggestions to develop stronger management and
                   communication systems, oversight of marketing materials, and outreach
                   efforts. To ensure consistent, clear, and formalized communications,
                   CMS indicated that it has set up multiple channels for communication
                   with Part D sponsors and industry representatives. These include
                   weekly Part D user group calls, a searchable MMA Question & Answers
                   database, and a “PDP help line” to provide drug benefit sponsors with
                   answers to marketing questions. Finally, a marketing guideline
                   training program has been established.

                   CMS stated that it has worked with an outside marketing contractor
                   and received extensive public comment to help it develop marketing
                   guidelines, model materials, and a streamlined marketing review to
                   ensure the appropriate oversight of sponsors’ materials. Additionally,
                   CMS stated that it has developed an oversight strategy to ensure that
                   sponsors are complying with requirements for the content and
                   distribution of makerting materials. Some components of this strategy
                   include focused audits, routine audits, a complaints tracking system,
                   and spot checks on a wide range of marketing materials.

                   CMS detailed a comprehensive outreach effort with national, regional,
                   and community-based outreach efforts related to our suggestions. The
                   agency described a targeted education effort that incorporates a
                   national multimedia campaign, simple fact sheets, audience-specific
                   outreach materials, direct mail, and community-based grassroots
                   outreach with numerous partners. CMS also highlighted the
                   personalized information available through the Drug Plan Compare
                   Web tool and 1-800-MEDICARE, as well as the one-on-one personalized
                   advice and counseling available from the State Health Insurance
                   Assistance Programs. The complete text of CMS’s comments is included
                   in Appendix D.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   OIG appreciates CMS’s response to this report and the detailed
                   descriptions of its ongoing and planned efforts regarding the oversight
                   of sponsors’ marketing marterials for the new drug benefit. These
                   descriptions highlight substantial efforts by CMS toward ensuring the
                   appropriate management, guidance, and oversight of sponsors’
                   marketing materials.


 OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM     30
                                                                                                  Report Template Version = 09-08-04




I M P L I C A T I O N                   S :               N       E W                 D R       U G        B   E N E F           I T


                   We are pleased that CMS found this information to be constructive and
                   is taking actions consistent with our findings and all of our suggestions,
                   with the exception of two. While CMS is not requiring the use of
                   specific pre-enrollment packets as we suggested, it is specifying
                   pre-enrollment materials sponsors should use in the marketing
                   guidelines. This guidance should help ensure that beneficaries receive
                   the information they need prior to enrollment. CMS also disagreed with
                   our suggestion to include a statement informing beneficiaries that they
                   have a choice of plans in sponsors’ marketing materials. It indicated
                   that this would not be consistent with industry standards, and that it is
                   using other marketing techniques to inform beneficiaries of their
                   choices. Based on our interviews with beneficiaries, we found that they
                   may not fully understand the range of choices that they have. We
                   encourage CMS to strongly emphasize this in its education and outreach
                   campaigns.




 OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM     31
                                                                                                 Report Template Version = 09-08-04




Δ   E N D N O T E S                           





                  1	   Centers for Medicare & Medicaid Services, “2004 CMS Statistics,”
                       Table 1, October 2004.

                  2	   Part B summary data, CMS National Claims History file, calendar
                       year 2003.

                  3	   Centers for Medicare & Medicaid Services, “Medicare Fact Sheet:
                       Final Rules Implementing the New Medicare Law: A New
                       Prescription Drug Benefit for All Medicare Beneficiaries,
                       Improvements to Medicare Health Plans and Establishing Options for
                       Retirees,” p. 3, January 21, 2005.

                  4	   Congressional Budget Office, “Comparison of CBO’s March 2005
                       Medicare Prescription Drug Baseline and the CBO Estimate for the
                       MMA,” March 4, 2005; and Centers for Medicare & Medicaid Services,
                       “Releasing the HHS Proposed Budget for FY 2006,” February 7, 2005.

                  5	   Centers for Medicare & Medicaid Services, “Fact Sheet: Medicare
                       Modernization Benefits in the First Year,” December 8, 2004.

                  6	   Centers for Medicare & Medicaid Services, “Approved General Drug
                       Cards.” This list includes all approved general drug cards, including
                       those with special endorsements such as long-term care pharmacies
                       and U.S. Territories; May 17, 2004.

                  7	   Exceptions are made for beneficiaries under certain circumstances,
                       such as moving outside the area served by their current drug card.

                  8	   These program limitations are described in the following documents:
                       Medicare Prescription Drug, Improvement, and Modernization Act of
                       2003, P.L. 108-173, § 101, subpart 4, codified in § 1860D-31(c)(1-2) and
                       § 1860D-31(d)(1-2) of the Social Security Act; and Centers for Medicare
                       & Medicaid Services, “Medicare Prescription Drug Discount Card and
                       Transitional Assistance Program, Information & Outreach Materials
                       Guidelines,” pp. 51-62, revised August 2004.

                  9	   Low-income beneficiaries who receive Medicaid, TRICARE (military
                       health insurance), the Federal Employees Health Benefit Program, or




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   32
                                                                                                 Report Template Version = 09-08-04




                        an employer’s health plan are not eligible to enroll in the Transitional
                        Assistance program.

                  10	   Centers for Medicare & Medicaid Services, “Fact Sheet: Medicare
                        Modernization Benefits in the First Year,” December 8, 2004.

                  11	   Medicare Prescription Drug, Improvement, and Modernization Act of
                        2003, P.L. 108-173, § 101, subpart 4, codified in § 1860D-31(d)(1) and
                        § 1860D-31(d)(2)(A) of the Social Security Act.

                  12	   Medicare Prescription Drug, Improvement, and Modernization Act of
                        2003, P.L. 108-173, § 101, subpart 4, codified in § 1860D-31 (d)(2)(A) of
                        the Social Security Act.

                  13	   42 CFR § 403.806(g)(5)(i) requires sponsors to “comply with the
                        Information and Outreach Materials Guidelines published by CMS.”
                        CMS initially published the “Medicare Prescription Drug Discount
                        Card and Transitional Assistance Program, Information & Outreach
                        Materials Guidelines” on January 22, 2004, and revised these
                        guidelines in August 2004. Revised guidelines are available on the
                        CMS Web site: www.cms.hhs.gov/discountdrugs.

                  14	   42 CFR § 403.806(g)(1) and Centers for Medicare & Medicaid Services,
                        “Medicare Prescription Drug Discount Card and Transitional
                        Assistance Program, Information & Outreach Materials Guidelines,”
                        pp. 24-25 and 39-51, January 22, 2004.

                  15	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” pp. 24-30, January 22,
                        2004.

                  16	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” pp. 24-30, January 22,
                        2004. Also, 42 CFR § 403.806(g)(1).

                  17	   Medicare Prescription Drug, Improvement, and Modernization Act of
                        2003, P.L. 108-173, § 101, subpart 4, codified in § 1860D-31(i)(2) of the
                        Social Security Act.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   33
                                                                                                 Report Template Version = 09-08-04




                  18	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” January 22, 2004,
                        revised in August 2004. Revised guidelines are available on the CMS
                        Web site: www.cms.hhs.gov/discountdrugs. Also, Centers for
                        Medicare & Medicaid Services, “Drug Discount Card Preferred
                        Terminology for Beneficiaries,” February 13, 2004.

                  19	   42 CFR § 403.806(g)(5)(ii) and 68 FR 69869, December 15, 2003.

                  20	   We excluded requirements related to other program features, such as
                        grievance procedures, enrollment/disenrollment rules, and mail order
                        pharmacies.

                  21	   CMS updated its Medicare Prescription Drug Discount Card and
                        Transitional Assistance Program, Information & Outreach Materials
                        Guidelines in August 2004. Although we assessed compliance with the
                        original Information and Outreach Materials Guidelines, the
                        requirements we assessed continue to be applicable to sponsors’
                        materials in the updated guidelines.

                  22	   Some State Pharmacy Assistance Programs automatically enrolled
                        their low-income members in an exclusive drug card. These
                        beneficiaries did not make a decision about enrolling in the program.

                  23	   It is important to note that all estimates of the number of beneficiaries
                        targeted by particular outreach methods are based only on the
                        estimations of drug card sponsors willing and able to supply the
                        information. Therefore, these figures are only meant to provide a
                        general sense of the potential of each outreach method and may not
                        represent the actual number of beneficiaries who received information
                        about the drug card program.

                  24	   The 39 noncompliant pre-enrollment packets are accounted for by
                        20 different pre-enrollment packets: 3 “template” pre-enrollment
                        packets that cover a total of 22 drug cards and 17 pre-enrollment
                        packets for individual cards. Of the 23 pre-enrollment packets not
                        found to be noncompliant, 19 were for individual cards and
                        1 “template” pre-enrollment packet covered the remaining 4 drug
                        cards.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   34
                                                                                                 Report Template Version = 09-08-04




                  25	   Centers for Medicare & Medicaid Services, “Model Enrollment Form
                        Instructions,” March 9, 2004. Income requirements are accurate for
                        2004.

                  26	   Centers for Medicare & Medicaid Services, “Model Enrollment Form
                        Instructions,” March 9, 2004.

                  27	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” p. 40, January 22,
                        2004.

                  28	   In March 2004, CMS added a requirement that when sponsors’
                        materials specify a percent discount, they must also include the
                        disclaimer: “Discounts vary by drug. Contact [drug card sponsor] to
                        find out . . . the discounted price.” CMS’s contractor interpreted this
                        policy change to supersede all previous disclaimers for discounts, as
                        opposed to adding this new disclaimer to the existing requirements.
                        This miscommunication about policy changes seems to have occurred
                        despite the formal structure CMS and its contractor had established to
                        handle policy clarification issues.

                  29	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” p. 43, January 22,
                        2004.

                  30	   In late April 2004, CMS attempted to clarify some of the requirements
                        for sponsors’ pre-enrollment packets by listing the key information
                        that must be included in a sponsor’s Summary of Program Features.
                        In this listing, CMS indicated that Summaries of Program Features
                        must describe types of pharmacies in a drug card’s network
                        (e.g., retail, mail order, etc.). However, this listing omitted several
                        required disclaimers, including the disclaimer about pharmacy
                        networks. CMS’s contractor informed us that it interpreted this
                        omission as superseding the original pharmacy network disclaimers.
                        CMS’s policy clarification occurred outside the formal structure
                        established to communicate policy changes between CMS and its
                        contractor.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   35
                                                                                                 Report Template Version = 09-08-04




                  31	   Centers for Medicare & Medicaid Services, “Medicare Prescription
                        Drug Discount Card and Transitional Assistance Program,
                        Information & Outreach Materials Guidelines,” p. 47, January 22,
                        2004.

                  32	   Fourteen of our twenty selected advertisements specified a percentage
                        discount. All 14 included the required disclaimer: “Discounts vary by
                        drug. Contact [drug card sponsor] to find out . . . the discounted price.”
                        However, this disclaimer does not indicate that discounts are subject
                        to change over time, nor that discounted prices may be found on CMS’s
                        Web site.

                  33	   See endnote 28 above.

                  34	   All 151 respondents interviewed were eligible for the drug card
                        program, and 53 respondents were eligible for the $600 Transitional
                        Assistance credit according to demographic information they provided.
                        We found that 82 respondents were not eligible for Transitional
                        Assistance and 16 respondents did not provide enough demographic
                        information to determine their eligibility. These 16 respondents are
                        included (with the 82 respondents) in our analysis as not eligible for
                        Transitional Assistance because the majority of Medicare beneficiaries
                        are not eligible for Transitional Assistance. Of the 113 respondents
                        reading pre-enrollment packets, 37 were eligible for Transitional
                        Assistance, 63 were not eligible, and 13 did not provide enough
                        demographic information to determine their eligibility.

                  35	   However, this does not account for the reason respondents gave for
                        their eligibility. In some cases, respondents correctly assessed their
                        eligibility but gave an incorrect reason or indicated that they did not
                        know why they were or were not eligible.

                  36	   To be included in our interviews, respondents had to be eligible for the
                        drug card program. That is, respondents were Medicare beneficiaries
                        without Medicaid prescription drug coverage.

                  37	   Unlike our other key program topics, we did not remove this question
                        from interviews if the material did not explicitly address choice of
                        cards. This question was meant to assess the impression made on
                        respondents by reading sponsors’ materials.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   36
                                                                                                 Report Template Version = 09-08-04




                  38	   These five responses were included in our analysis as answering
                        “based on the material, there is only one drug card available.” We
                        excluded from our quantitative analysis any response clearly based on
                        outside knowledge and not on the material. In addition to the five
                        responses above, seven beneficiaries indicated that they knew from
                        outside knowledge that more than one drug card was available under
                        the Medicare-approved drug discount card program. Eight other
                        beneficiaries responded that they knew from outside knowledge that
                        more than one drug card was available; however, these respondents
                        referenced other, non-Medicare-approved drug cards. All 15 responses
                        were removed from our quantitative analysis.

                  39	   Fourteen interviews were about cards that had no enrollment fee.
                        These respondents were not asked to identify the frequency of the fee.
                        In addition, respondents were not asked to identify the frequency of
                        the fee if they incorrectly reported that there was no enrollment fee, or
                        reported that they did not know the amount of the fee based on
                        reading the material.

                  40	   Unlike pre-enrollment packets, advertising materials are not expected
                        to provide in-depth information about the drug card program and thus
                        are not required to include information about all key program
                        features. Because we only asked respondents about topics covered in
                        the material they read, the number of beneficiaries responding to each
                        question varied from 3 to 34. We calculated the proportion of correct
                        answers for each respondent by dividing the number of correct
                        answers by the number of test questions included in the interview.




OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   37
                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    A
Δ       A P P E N D I X                         ~            A            


                      Detailed Methodology
                      Scope
                      This inspection focuses on sponsors’ materials that are likely to inform
                      beneficiaries’ decisions about enrolling in the drug card program. Pre-
                      enrollment packets are required to include information CMS has
                      designated as necessary to promote informed choice prior to enrollment.
                      Advertising materials are intended to generate interest and encourage
                      beneficiaries to obtain the additional information they need to enroll.

                      We did not review enrollment forms or postenrollment materials
                      because these do not affect informed choice. Also, our review excludes
                      any materials written in languages other than English as well as any
                      materials specifically designed for persons with disabilities (such as
                      materials in Braille). CMS guidelines encourage, but do not require,
                      sponsors to develop these targeted materials.

                      Materials from exclusive drug card sponsors were excluded from our
                      review because these sponsors’ drug cards are offered exclusively to
                      beneficiaries enrolled in the sponsor’s Medicare Advantage program.
                      These beneficiaries choose only whether to enroll in the drug card
                      offered by their Medicare Advantage program and do not have a choice
                      among drug cards.
                      Assessing Whether Sponsors’ Materials Promote Informed Choice
                      To assess the extent to which sponsors’ materials promote informed
                      choice, we reviewed a selection of materials and conducted interviews
                      with sponsors that administer 62 drug cards.
                      Selection of sponsors’ materials. We selected 62 pre-enrollment packets
                      and 20 advertising materials as they were approved by CMS for our
                      review. Because we obtained materials from CMS rather than directly
                      from the sponsors, it is possible that the selected materials could be
                      different from the ones sent to beneficiaries. For example, it is possible
                      that a sponsor could send to beneficiaries materials that have not been
                      reviewed and approved by CMS, or that a sponsor could fail to submit
                      revised material to CMS prior to sending it to beneficiaries.

                      The 20 advertising materials included 14 direct-mail materials
                      (postcards, letters, brochures), 1 print ad, and 5 other tangible
                      advertisements (brochures, pharmacy fliers) distributed either in person
                      or through a third party. Although 28 drug card sponsors used some
                      tangible advertising in their outreach, 6 used materials not approved by
                      CMS’s contractor. Four of these were letters approved by CMS regional


    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   38
                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    A


                      offices to be sent to Medicare Advantage members; the other two should
                      have been submitted for CMS’s review but were not. Finally, in two
                      cases we made a sampling error by selecting an alternate version of the
                      sponsor’s pre-enrollment packet instead of an advertisement.
                      Structured Review of Sponsors’ Materials. We conducted a structured
                      review of selected sponsors’ materials to identify whether approved
                      materials include required information. We also collected some
                      descriptive information about each material. Our review included
                      requirements related to eight key program features: program
                      description, eligibility, choice of cards, discounts/drug prices, enrollment
                      fee, pharmacy network, contact information, and enrollment
                      instructions/forms.

                      We discussed the noncompliance we found in our structured review with
                      CMS and CMS’s contractor. At our request, CMS’s contractor reviewed
                      sponsor materials we found to be noncompliant. For most of the
                      noncompliance we found, CMS’s contractor agreed that materials were
                      noncompliant and provided an assessment of the source of error that led
                      to noncompliance. In a few cases, CMS’s contractor indicated that our
                      interpretation of certain CMS requirements did not match the protocol
                      used in its approval process, and that some materials in question should
                      be considered compliant. We discussed these cases with CMS staff, who
                      clarified these requirements. As part of this discussion, CMS staff
                      indicated that a miscommunication about policy changes between CMS
                      and its contractor was a source of error. Our report includes the results
                      of these discussions.
                      Cognitive Interviews With Beneficiaries. We conducted interviews at a total
                      of 24 community-based senior centers in five cities (we visited 4 senior
                      centers in 1 city and 5 senior centers in each of the other cities). Within
                      each city we sought to maximize the number of centers located in low-
                      income areas to increase the number of Transitional Assistance-eligible
                      respondents. Respondents volunteered to be interviewed and were not
                      compensated for their time.

                      To allow beneficiaries to review pre-enrollment packets and answer
                      questions in a relatively short interview, we found it was necessary to
                      provide them with a selection from the pre-enrollment packet as
                      opposed to a complete packet. We used a standard protocol to prepare
                      pre-enrollment packet selections. Our selections included information
                      relevant to the key program topics in the interview and excluded
                      information not relevant to the interview or repetitive information. In

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   39
                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    A


                      cases in which key information was repeated in the pre-enrollment
                      packet we included the more comprehensive section. Advertising
                      materials were brief enough to be read in 5 to 15 minutes and were used
                      in our cognitive interviews in their entirety.

                      We excluded questions from each interview when the selected material
                      did not contain answers to those questions. In addition, all interview
                      questions were phrased to elicit responses based on the material. We
                      attempted to ascertain if a respondent’s response was based on the
                      selected material or on outside information. If it was clear that the
                      respondent was answering a question based on knowledge other than
                      from reading the material, we excluded that response from our analysis
                      of that question.
                      Key Demographic Information on Our Beneficiary Respondents
                      Overall, 53 of the 135 respondents who provided information on income,
                      marital status, and other prescription drug coverage were eligible for
                      the $600 Transitional Assistance credit. The 2004 income limit for
                      Transitional Assistance is $12,570 for single individuals and $16,862 for
                      married beneficiaries. Medicare beneficiaries who also have Medicaid,
                      TRICARE for Life, Federal Employees Health Benefit Program, or other
                      employer-sponsored coverage are not eligible for Transitional
                      Assistance. We found that 82 respondents were not eligible for
                      Transitional Assistance and 16 respondents did not provide enough
                      demographic information to determine their eligibility. These
                      16 respondents are included (with the 82 respondents) in our analysis
                      as not eligible for Transitional Assistance because most Medicare
                      beneficiaries are not eligible for Transitional Assistance.
                      Following are demographics for the beneficiaries we interviewed:
                      o 	 74 percent were single and 76 percent were female.

                      o 	 71 percent were Caucasian, 21 percent were African American,
                          2 percent were Hispanic, 1 percent were Asian, and 5 percent
                          were other races.
                      o 	 79 percent of our respondents were 65 to 84 years old, 14 percent
                          were 85 and over, and 7 percent were under 65.
                      o 	 70 percent had less than a college degree (5 percent had some
                          grammar school, 14 percent had some high school, 27 percent
                          were high school graduates, and 24 percent had some college),
                          15 percent were college graduates, and 15 percent had attended
                          graduate school.

    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   40
                                                                                                                         Report Template Version = 09-08-04




      Δ             A P P E N D I X                                 ~            B

                                         Noncompliance for All Requirements Assessed and Sources of Error


  TABLE 5: Requirements Assessed for Pre-Enrollment Packets and Noncompliance Found

                                                                                                                                                  Pre-Enrollment
  Key Program                                                                                                                                     Packets Not in
  Feature                      Requirements—Pre-Enrollment Packets Must Include the Following Information:*                                    Compliance (of 62)

                               Annual income limits for both single and married beneficiaries                                                                  2

  Eligibility for              Beneficiary cannot have other prescription drug coverage                                                                        2
  Transitional
                               Definition of income: “Income includes money that you receive through retirement
  Assistance
                               benefits from Social Security, Railroad, the Federal or State governments, or other
                                                                                                                                                               7
                               sources, and benefits you receive for a disability or as a Veteran, plus any other
                               sources of the type that you would report for tax purposes.”

                               Who is eligible for drug card program                                                                                           0

                               Must be a Medicare beneficiary to be eligible for drug card program                                                             0
  Eligibility for the
                               Must not be receiving drug benefits through Medicaid to be eligible for drug card
  Drug Card Program                                                                                                                                            2
                               program
                               “[Approved Card Sponsor Name] is available to all Medicare beneficiaries in [service
                               area] except for those who have prescription drug coverage under their State's                                                  2
                               Medicaid.”
                               Program description material (could be Summary of Program Features, Member
                                                                                                                                                               0
                               Handbook, or other type)

                               Enrollment instructions                                                                                                         2
  Pre-Enrollment
  Information
                               Enrollment form for the drug card program                                                                                       1

                               Enrollment form for Transitional Assistance                                                                                     1

  Benefits of the              IF AN ENROLLMENT FEE IS CHARGED: Must indicate that Medicare will pay the fee
                                                                                                                                                               0
  Program                      if a beneficiary is eligible for Transitional Assistance
                               “[Program name] is not intended to replace prescription drug benefits obtained through
                               participation in insurance plans including a Medicare Advantage plan, a Medigap policy,                                        18
                               Medicaid, or an employer or retiree plan.”
                               “[Program name] is a prescription drug discount card program that is approved by
                                                                                                                                                              17
                               Medicare but it is not a Medicare benefit.”
                               WHEN PRE-ENROLLMENT PACKET DISCUSSES DISCOUNTS: Discounts and/or
                                                                                                                                                              17
                               drug prices are subject to change [over time]

                               Requirement that enrollees must use network pharmacies                                                                          1
  Program Disclaimers
                               “Enrollees must use [Approved Card Program]’s network pharmacies in [service area]
                               to obtain the prescription discount we offer and to apply Transitional Assistance to the
                                                                                                                                                               9
                               prices of your drug. A network pharmacy is a pharmacy where our discounted drugs
                               can be purchased and Transitional Assistance can be used.”
                               IF AN ENROLLMENT FEE IS CHARGED: Must mention that an enrollment fee is
                                                                                                                                                               2
                               charged
                               WHEN PRE-ENROLLMENT PACKET INDICATES THAT NO ENROLLMENT FEE IS
                                                                                                                                                               1
                               CHARGED: Must indicate that there is a cost for drugs
* Drug card sponsors are allowed to paraphrase information in quotes. 

Source: Office of Inspector General analysis of selected sponsor materials, 2004.




                OEI-05-04-00190          ASSESSMENT    OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   41
                                                                                                                           Report Template Version = 09-08-04




         A    P    P E N D             I X ~         B             





  TABLE 5 (cont.): Requirements Assessed for Pre-Enrollment Packets and Noncompliance Found

                                                                                                                                                   Pre-Enrollment
                                                                                                                                                   Packets Not in
  Key Program                                                                                                                                         Compliance
  Feature                     Requirements—Pre-Enrollment Packets Must Include the Following Information:*                                                 (of 62)
                              “You may be enrolled in only one [Medicare-Approved Rx Discount Approved Card
  Choice of Cards             Program] at one time” OR “Medicare beneficiaries may be enrolled in only one [Approved                                            20
                              Card Program] at a time.”

                              IF AN ENROLLMENT FEE IS CHARGED: Must include the (correct) amount                                                                1

                              WHEN PRE-ENROLLMENT PACKET DISCUSSES DISCOUNTS: How to get more
                              complete information about drug prices and/or discounts including both visiting Medicare                                           5
  Comparative                 Price Compare Web site and contacting sponsor
  Information About
                              Drug card sponsor toll-free number                                                                                                 0
  Drug Card

                              Medicare toll-free number                                                                                                          0

                              Medicare Web site                                                                                                                  2

  Total (Unduplicated) Pre-Enrollment Packets Not in Compliance With at Least One of the 25 Requirements                                                        39
* Drug card sponsors are allowed to paraphrase information in quotes. 

Source: Office of Inspector General analysis of selected sponsor materials, 2004.





  TABLE 6: Requirements Assessed for Advertising Materials and Noncompliance Found

  Key                                                                                                                                            Advertisements
  Program                                                                                                                                      Not in Compliance
  Feature             Requirements—Advertisements Must Include the Following Information:*                                                                (of 20)
                      WHEN AD INDICATES THAT NO ENROLLMENT FEE IS CHARGED: Must indicate that
                                                                                                                                                                 0
                      there is a cost for drugs
                      WHEN AD DISCUSSES DISCOUNTS: Must indicate that discounts and/or drug prices are
  Program                                                                                                                                                       13
                      subject to change [over time]
  Disclaimers
                      WHEN AD SPECIFIES A PERCENT DISCOUNT: Must state that “Discounts vary by drug.
                      Contact [Program Name] to find out [if your prescription drug is covered and] the discounted                                               0
                      price.”
                      WHEN AD INCLUDES ENROLLMENT INFORMATION: Must include “You may be enrolled
  Choice of
                      in only one [Medicare-Approved Rx Discount Approved Card Program] at one time” OR                                                          0
  Cards
                      “Medicare beneficiaries may be enrolled in only one [Approved Card Program] at a time.”
                      WHEN AD INDICATES THAT AN ENROLLMENT FEE IS CHARGED: Must include the
                                                                                                                                                                 0
                      (correct) amount
  Comparative
                      WHEN AD DISCUSSES DISCOUNTS: Must describe how to get more complete
  Information
                      information about drug prices and/or discounts including both visiting Medicare price                                                     15
  About Drug
                      compare Web site and contacting sponsor
  Card
                      Drug card sponsor toll-free number                                                                                                         0

  Total (Unduplicated) Advertisements Not in Compliance With at Least One of the Seven Requirements                                                             15
* Drug card sponsors are allowed to paraphrase information in quotes. 

Source: Office of Inspector General analysis of selected sponsor materials, 2004.


               OEI-05-04-00190           ASSESSMENT      OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM    42
                                                                                                             Report Template Version = 09-08-04




A   P   P E N D           I X ~        B             





                        TABLE 7: Sources of Noncompliance for Sponsors’ Pre-Enrollment
                        Packets and Advertising Materials

                                                                                           Pre-Enrollment Packets                Ads With Any
                        Source(s) of Error
                                                                                          With Any Noncompliance                Noncompliance

                        Reviewer Error Only                                                                          13                       0

                        Sponsor Error Only                                                                            3                       0

                        Miscommunication of Policy Changes
                                                                                                                      3                      15
                        Only

                        Reviewer and Sponsor Error                                                                    0                       0

                        Reviewer Error and Policy
                                                                                                                      5                       0
                        Miscommunication
                        Sponsor Error and Policy
                                                                                                                     13                       0
                        Miscommunication
                        All Types of Error: Reviewer Error,
                        Sponsor Error, and Policy                                                                     2                       0
                        Miscommunication

                        Total With Any Noncompliance                                                                 39                      15

                      Source: Office of Inspector General analysis of CMS verification of selected sponsor materials’ noncompliance, 2004.




    OEI-05-04-00190        ASSESSMENT      OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   43
                                                                                                      Report Template Version = 09-08-04




Δ   A P P E N D I X                              ~            C 




                      Beneficiary Understanding
                      Although this report presents beneficiary interview data primarily
                      using proportions, this appendix provides the actual number of
                      respondents for our key data, as well as respondent understanding by
                      eligibility for Transitional Assistance.

                      As mentioned previously, the actual number of respondents answering
                      each question varies. In many cases this is because the pre-enrollment
                      packet or advertisement did not contain the information relevant to a
                      particular question. In other cases, beneficiaries were unable to
                      separate their outside knowledge of the program from the material, and
                      so we excluded their response from our quantitative analysis. In all
                      cases, the data in this report are restricted to our respondents and are
                      not projectable to the entire Medicare population.


                    TABLE 8: Proportion of Respondents Who Understood Key Program Features
                    Based on Reading Sponsors’ Pre-Enrollment Packets
                                                                                Proportion of               Transitional   Non-Transitional
                                                                            Respondents Who                 Assistance-        Assistance-
                    Key Program Feature
                                                                              Understood Key                    Eligible           Eligible
                                                                                      Feature              Respondents       Respondents*

                    Eligibility                                                         58% (n=99)          63% (n=35)          55% (n=64)

                    Program Limitations: Drugs
                                                                                        59% (n=68)          44% (n=18)          64% (n=50)
                    Covered Can Change
                    Program Limitations: Drug
                                                                                        74% (n=82)          67% (n=24)          78% (n=58)
                    Prices Can Change

                    Choice of Cards                                                     54% (n=92)          45% (n=29)          59% (n=63)

                    Comparative Information:
                                                                                    58% (n=100)             50% (n=32)          62% (n=68)
                    Annual Enrollment Fee

                    All Key Program Features                                        21% (n=113)             22% (n=37)          21% (n=76)
                  * This category includes 13 respondents whose eligibility for Transitional Assistance could not be determined.
                  Source: Office of Inspector General analysis of Medicare beneficiary interviews, 2004.

                      To calculate the proportion of respondents who understood all key
                      program features, we divided the number of correct answers by the
                      number of test questions answered. Although we interviewed
                      38 beneficiaries who reviewed advertising materials, one respondent
                      reading an advertisement did not provide a response to any test
                      question, although this respondent answered other opinion and
                      descriptive questions in the interview.



OEI-05-04-00190       ASSESSMENT    OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   44
                                                                                                        Report Template Version = 09-08-04




A   P   P E N D       I X ~       C             




                        TABLE 9: Proportion of Key Test Questions Answered Correctly, by
                        Advertisements vs. Pre-Enrollment Packets
                                                                                                                             Proportion of
                                                                                        Proportion of
                        Proportion of Test Questions                                                               Respondents Reviewing
                                                                              Respondents Reviewing
                        Answered Correctly                                                                         Pre-Enrollment Packets
                                                                               Advertisements (n=37)
                                                                                                                                  (n=113)

                        50% or Less                                                                      57%                           32%

                        51%-79%                                                                          16%                           22%

                        80% or More                                                                      27%                           46%

                      Source: Office of Inspector General analysis of Medicare beneficiary interviews, 2004.


                      Respondent Understanding of Pre-Enrollment Packets, by Respondents’
                      Eligibility for Transitional Assistance
                      Regardless of eligibility status, a greater proportion of respondents
                      understood their eligibility for Transitional Assistance than for the drug
                      card program. Of the TA-eligible respondents who assessed their
                      eligibility, 80 percent understood that they were eligible for Transitional
                      Assistance. However, 74 percent of TA-eligible respondents understood
                      that they were eligible for the drug card program. Of non-TA-eligible,
                      86 percent understood that they were not eligible for Transitional
                      Assistance, and only 62 percent understood that they were eligible for
                      the drug card program.

                      More respondents understood that drug prices could change than
                      understood that drugs covered could change. Sixty-seven percent of
                      TA-eligible respondents understood that drug prices could change, as
                      did 78 percent of non-TA-eligible respondents. Forty-four percent of
                      TA-eligible respondents understood that drugs covered could change, as
                      did 64 percent of non-TA-eligible respondents.

                      Fewer TA-eligible respondents than non-TA-eligible respondents
                      correctly identified that more than one Medicare-approved drug
                      discount card existed. That is, 45 percent of TA-eligible respondents
                      correctly identified that there was more than one available card,
                      compared to 59 percent of non-TA-eligible respondents.

                      Fewer TA-eligible respondents than non-TA-eligible respondents
                      correctly identified the cost of the enrollment fee and reported that this
                      information was clearly explained. Specifically, 69 percent of
                      TA-eligible respondents correctly reported the amount of the enrollment
                      fee for the material they reviewed, compared to 75 percent of


    OEI-05-04-00190   ASSESSMENT      OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   45
                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    C


                      non-TA-eligible respondents. Similarly, 63 percent of respondents
                      eligible for Transitional Assistance reported that the enrollment fee was
                      clearly explained, compared to 78 percent of non-TA-eligible
                      respondents.




    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   46
                                                                                                     Report Template Version = 09-08-04




Δ      A P P E N D I X                          ~            D

                      Agency Comments




    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   47 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   48 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   49 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   50 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   51 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   52 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   53 

                                                                                                     Report Template Version = 09-08-04




A   P   P E N D       I X ~    D             





    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   54 

                                                                                                     Report Template Version = 09-08-04




Δ      A C K N O W L E D G M E N T S                                                                




                      This report was prepared under the direction of William C. Moran,
                      Regional Inspector General for Evaluation and Inspections in the
                      Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                      General. Other principal Office of Evaluation and Inspections staff who
                      contributed include:

                      Susan Otter, Team Leader
                      Mara Siler-Price, Program Analyst

                      Nicole Lawhorn, Intern

                      Emily Melnick, Senior Program Analyst

                      Laura Torres, Program Analyst

                      Erin Lemire, Program Analyst

                      Beth Middendorf, Presidential Management Fellow

                      Tricia Davis, Director, Medicare and Medicaid Branch

                      Linda Boone Abbott, Program Specialist



                      Technical Assistance:

                      Barbara Tedesco, Mathematical Statistician

                      Kevin Farber, Mathematical Statistician




    OEI-05-04-00190   ASSESSMENT   OF   S P O N S O R S ’ M AT E R I A L S U N D E R   THE   TEMPORARY DRUG DISCOUNT CARD PROGRAM   55
